No. 20-0173
IN THE SUPREME COURT OF THE UNITED STATES

JAMES R. HEFFLIN, ET UX„ PETITIONERS
v.
COMMISIONER OF INTERNAL REVENUE, RESPONDENT.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR REHEARING
JAMES R. HEFFLIN
Petitioner
28371 Ebony Court
Menifee, California 92584
(949) 566-1095

-1

No. 20-0173
IN THE SUPREME COURT OF THE UNITED STATES

JAMES R. HEFFLIN, ET UX„ PETITIONERS
v.

COMMISIONER OF INTERNAL REVENUE, RESPONDENT.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, the Petitioners hereby respectfully petition
for a rehearing of this case before a full nine-Member Court.
1. The Petitioners case was summerly dismissed without a hearing by this
Court.
2. This information is substantial and was not previously presented.
3. The Respondent ignored the Petitioners for two (2) years causing penalties

and interest to occur increasing the tax liability, and then filing a federal tax
lien against the Petitioners. The additional tax liability would not have
occurred with the resulting federal tax lien if the Respondents would have
responded to the Petitioners multiple inquires and requests for a payment
plan, and the removal of the tax liability for the years of no response from the
Respondent. The Plaintiff is being penalized for the lack of the Respondent’s
response, and therefore illegally taxed.
For the forgoing reasons the, the petition for rehearing should be granted.
Respectfully submitted,

-2

received
NOV - 3 2020

J
CERTIFICATE
I hereby certify that this petition for rehearing is presented in good faith and
not for delay.

dames R. Hefflin
Petitioner
CERTIFICATE OF SERVICE
I hereby certify that the foregoing PETITION FOR REHEARING; Case Number:
20-0173 was sent by me on this date via U.S. Mail to:
Clerk of the U.S. Supreme Court
Clerk, Supreme Court of the United States
Washington, D. C. 20543
Resnondent(s)
Anthony T. Sheehan
U.S. Department of Justice
Tax Division
P.O. Box 502, WA. DC. 2004

October 28. 2020
Date

James R. Hefflin
Petitioner

-3

